February 26, 2014

Major General Jeffrey N. Colt
Deputy Commander, Support
  United States Forces-Afghanistan
Dear Major General Colt:
Thank you for your memorandum dated January 31, 2014, regarding SIGAR’s recent publication of the
results of an inspection of the Commander’s Emergency Response Program (CERP)-funded Salang
Hospital in Parwan province. 1 Because U.S. Forces-Afghanistan (USFOR-A) official comments were not
provided on a draft of our inspection report at the time of its publication, we are issuing your official
comments and our response to it separately. 2
As noted in your memorandum, United States Forces-Afghanistan (USFOR-A) concurred with all but one of
our recommendations. With regard to our first recommendation, USFOR-A agreed to hold accountable
those contracting officer(s) who may have failed to provide the required contract oversight. Specifically,
USFOR-A will investigate why the hospital was not built in accordance with contract specifications and, if
necessary, take corrective actions against the contracting officer(s) responsible for oversight and
management of the hospital construction project. These are positive actions that we believe will provide
accountability for the serious contract management and oversight mistakes that were made on this
project.
USFOR-A also agreed with our recommendation to perform a physical inspection of the hospital and, if
needed, determine corrective actions to be taken to ensure the building’s structural integrity. However,
rather than conducting an inspection itself or directing its subordinate units to do so, USFOR-A stated that
one of its regional commands will “advise and mentor the Parwan Provincial Government and the Salang
District Government in their efforts to employ indigenous expertise to identify and repair structural
deficiencies in the hospital.” According to USFOR-A, the combination of the high threat level, reduced
coalition footprint, and the belief that the Afghans are assuming the lead in their own governance and
development 3 makes an inspection by coalition forces highly risky and unnecessary. While we recognize
that the ability to provide oversight by coalition forces is diminishing as the military continues to draw down
and the transfer of properties and programs to the Afghan government accelerates, we are concerned that
relying solely on provincial and district officials may not provide the level of oversight needed to ensure
that problems at the hospital are fixed.




1
  SIGAR 14-31 Inspection Report, Salang Hospital: Lack of Water and Power Severely Limits Hospital Services,
And Major Construction Deficiencies Raise Safety Concerns, January 29, 2014.
2
  SIGAR, as a matter of practice, provides agencies 14 days to provide comments on inspection reports.
Although USFOR-A requested an extension of the agency comment period for this report, which SIGAR
granted, it was not able to provide formal, signed comments on the report within the extended comment
period.
3
  According to technical comments provided to SIGAR through USFOR-A, the Department of the Army’s
Combined Joint Task Force-101 stated that the Salang Hospital was transferred to the Afghan government in
September 2012 (see enclosure IV). Specifically, the Parwan Provincial Governor signed an agreement stating
that he and his government were responsible for maintenance and associated costs.
Notably, a January 28, 2014, press release issued by USFOR-A’s Office of Public Affairs regarding our
inspection report 4 used statements from an Afghan official to indicate that the problems we uncovered at
the Salang Hospital have been fixed. Specifically, the press releases cited the official as stating that the
hospital has, among other things, full dentistry, pediatric, and maternity capabilities and is supplied with
electricity using a solar power generation unit that is used to supplement the hospital’s generator. These
claims are clearly disputed by our November 2013 site visit, which found serious hindrances to the
hospital staff’s ability to provide care because of the lack of electricity, water, furniture, and equipment. A
recent visit by NBC News to the facility confirmed that the problems we found persist. For example,
medical staff at the hospital interviewed by NBC News decried the lack of equipment, electricity, and ability
to provide the full range of medical services that the facility was originally intended to make available to
the local population. Further, according to the Army Geospatial Center, there is no evidence that, as of the
date of USFOR-A’s press release, any solar panels had been installed on the hospital’s roof to provide
supplemental electricity.
This information underscores the problems that can occur when information is not verified by an
independent source. Therefore, we encourage USFOR-A to use additional means to verify that its efforts to
advise and mentor district and provincial staff have resulted in real improvements to the site. Such means
might include using geospatial intelligence, deploying Afghans working for USFOR-A who can more safely
visit the site, or adopting other techniques.
With regard to our recommendation to determine why required documents were not placed into the
Combined Information Data Network Exchange (CIDNE) database and to identify and hold accountable the
contracting officer(s) responsible for this problem, USFOR-A did not concur, citing U.S. Central Command’s
Joint Theater Support Contracting Command’s (C-JTSCC) comment on our report that contracting officers
have no authority to enter documents into CIDNE and that the responsibility lies instead with the CERP
project manager and/or purchasing officer. In our view, USFOR-A’s and C-JTSCC’s comments indicate
agreement with the spirit of the recommendation and we have revised it accordingly to direct it to the
correct officials (see encl. I).USFOR-A also indicated that the missing documents have been found and
placed in the database. We will close the recommendation once we verify that all missing documents have
been placed in CIDNE.
Thank you for your comments and for your staff’s cooperation over the course of our inspection.
Sincerely,




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction



Enclosures




4
 USFOR-A Office of Public Affairs, “US-funded, historic Salang Hospital providing critical care to mountain
villagers,” January 28, 2014.

SIGAR 14-31a-IP
Enclosure I - SIGAR’s Revised Recommendations
To ensure that the Salang hospital is useful, safe, and sustainable for the Afghan people, and to protect
the U.S. government's investment, we recommend that the Commanding General, USFOR-A, direct the
appropriate USFOR-A units to take the following steps, and report back to SIGAR within 90 days:

1. Identify the contracting officer(s) responsible for oversight of the Salang hospital construction activities
and determine:

         (a) why the hospital was not built according to contract specifications and acceptable
             construction standards;

         (c) what disciplinary action, if any, should be taken against the contracting officer(s) who failed to
             provide required oversight.

2. Identify the CERP program manager(s) and project purchasing officer responsible for Salang Hospital
and determine why required documents were not placed in the CIDNE database.

3. Perform a physical inspection of the building, including appropriate engineering tests and analyses, and,
given its location in a high seismic activity zone, determine what corrections are required to ensure the
structural integrity of the building.




SIGAR 14-31a-IP
Enclosure II – Response from United States Forces-
Afghanistan


                                            HEADQUARTERS
                                  UNITED STATES FORCES-AFGHANISTAN
                                         KABUL, AFGHANISTAN
                                             APO AE09354



      USFOR-A DCDR-S                                                                     31 January 2014


      MEMORANDUM THRU United States Central Command Inspector General (CCIG), MacDill Air
      Force Base, FL 33621

      FOR Special Inspector General for Afghanistan Reconstruction (SIGAR), 2530 Crystal Drive,
      Arlington, VA 22202-3940

      SUBJECT: United States Forces-Afghanistan (USFOR-A) Response to SIGAR 14-31 Inspection
      Report


      1. References:

         a. SIGAR Final Report on "Salang Hospital: Lack of Water and Power Severely Limits
      Hospital Services, and Major Construction Deficiencies Raise Safety Concerns," 29 January 2014

          b. U.S. Central Command (CENTCOM) Joint Theater Support Contracting Command
      (C-JTSCC) Response Memorandum to SIGAR Final Report, 31 January 2014

          c. Regional Command-East (RC-E) Response Memorandum to SIGAR final Report,
      31 January 20 14

      2. US FOR-A has reviewed SJGAR report I4-31 and concurs with comment for recommendations
      1a, I c, and recommendation 2. USFOR-A non-concurs with recommendation 1b. Detailed
      information and comments are provided in enclosures I and 2.

      3. Recommendations: To ensure the Salang hospital is useful, safe, and sustainable for the Afghan
      people, and to protect the U.S. government's investment, we recommend that the Commanding
      General, USFOR-A, direct the appropriate USFOR-A units to take the following steps:

         SlGAR Recommendation 1: Identify the contracting officer(s) responsible for oversight of the
      Salang hospital construction activities and determine:

         a. Why the hospital was not built according to contract specifications and acceptable
      construction standards.

             Response: Concur with comment. The AR 15-6 investigation will identify the
      Contracting Officer's Representatives (COR), Project Purchasing Officers (PPO) and operational
      commanders, as well as contracting officers responsible for oversight of this project. (Encl I)




SIGAR 14-31a-IP
    USFOR-A DCDR-S
    SUBJECT: United States Forces-Afghanistan (USFOR-A) Response to SIGAR 14-31
    Inspection Report


       b. Why required documents were not placed in the CJDNE database.

            Response: Nonconcur. C-JSTCC recommends that the investigation identify the CERP
   Program Manager(s) and PPO responsible for this project. (Encl 1)
            In January 2009, a Money As A Weapon System-Afghanistan (MAAWS-A) publication did
   not exist. As such, there were no requirements to upload documents in the Combined Information
   Data Network Exchange (ClONE) database. RC-E was able to provide copies of the documents
   listed as missing. These documents are now uploaded in the ClONE database. (Encl 2)

       c. What disciplinary action, if any, should be taken against the contracting officer(s) who
   failed to provide required oversight.

           Response: Concur with Comment. C-JTSCC CG will appoint an investigating officer to
   conduct an investigation in accordance with Army Regulation (AR) 15-6 Procedures for
   Investigating Officer and Boards of Officer to look into the actions of the Contracting Officer(s)
   involved and the overall acquisition process. (Encl 1)

      d. Perform a physical inspection ofthe building, including appropriate engineering tests and
   analyses, and, given its location in a high seismic activity zone, determine what corrections are
   required to ensure the structural integrity ofthe building.

           Response: Concur with Comment. RC-E will advise and mentor the Parwan Provincial
   Government and the Satang District Government in their efforts to employ indigenous expertise to
   identify and repair structural deficiencies in the hospital. (Encl 2)

   4. The point of contact for this action is COL Thurinton Harvell at DSN-                or via
   e-mail atl!!l!ll!ll!ll!ll!ll!ll!!l!ll!ll!ll!ll!ll!l!!!!!!!!!!




   2 Encls
   I. C-JTSCC Response Memo, 31 Jan 14
                                              Qs~    Major General, U.S. Army
   2. RC-E Response Memo, 31Jan 14                   Deputy Commander, Support
                                                       United States Forces-Afghanistan




                                                     2




SIGAR 14-31a-IP
Enclosure III – Response from CENTCOM Joint Theater
Support Contracting Command


                                               HEADQUARTERS
                                 CENTCOM JOINT THEATER SUPPORT CONTRACTING COMMAND
                                              CAMP PHOENIX, AFGHANISTAN
                                                     APO AE 09320
                  REPL't'TO
                  ATTENTIO" OF



      CJTSCC-CG                                                                      31 January 2014


      MEMORANDUM THRU U.S. Central Command (CENTCOM), CCIG External Audits
      (Attn: Mr. H. Banks Edwards)

      FOR Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR),
      1550 Crystal Drive, Suite 900 (Attn: Ms. Elizabeth A. Field), Arlington, VA 22202

      SUBJECT: Response to SIGAR 14-31 Inspection Report- "Salang Hospital: Lack of
      Water and Power Severely Limits Hospital Services. and Major Construction
      Deficiencies Raise Safety Concerns"


      1. C-JTSCC provides the following response to the subject report:

         a. Recommendation (1) a. The Commanding General, U.S. Forces-Afghanistan
      (USFOR-A), direct the appropriate USFOR-A units to identify the contracting officer(s)
      responsible for oversight of the Salang hospital construction activities and detennine
      why the hospital was not built according to contract specifications and acceptable
      construction standards, and report back to SIGAR within 90 days.

          Response: Concur with comment. C-JTSCC recommends that the investigation
      identify Contracting Officer's Representatives(COR)/project purchasing officers (PPO)
      and operational commanders as well as Contracting Officers responsible for oversight
      of this project.

         b. Recommendation (1) b. The Commanding General, U.S. Forces-Afghanistan
      (USFOR-A), direct the appropriate USFOR-A units to identify the contracting officer(s)
      responsible for oversight of the Satang hospital construction activities and detennine
      why required documents were not placed in the ClONE database, and report back to
      SIGAR within 90 days.

          Response: Nonconcur. C.JSTCC recommends that the investigation Identify
      the CERP Program Manager(s) and PPO responsible for this project to determine
      why required documents were not placed in the ClONE database. Contracting
      Officers have no authority to enter documents into the ClONE database and are not
      responsible for entering data into the ClONE database. According to Money As A
      Weapon System Afghanistan (MAAWS-A), USFOR-A Pub 1-06, Commander's
      Emergency Response Program (CERP) SOP, dated Dec 2009, page 18, "The CERP
      Project Manager (PM) and/or Purchasing Officer (PO) is responsible for inputting new
      CERP projects into ClONE and updating the status of these projects as changes occur.
      or at least monthly (no later than the 3rd of each month). The CERP Program Manager
      is responsible for ensuring all data inputted into ClONE is accurate and complete prior
      to processing the project for approval". C-JTSCC Contracting Officers enter data into




SIGAR 14-31a-IP
       CJTSCC-CG
       SUBJECT: Response to Draft SIGAR 14-XX Inspection Report - "Salang Hospital:
       Lack of Water and Power Severely Limits Hospital Services, and Major Construction
       Deficiencies Raise Safety Concerns"


       the Standard Procurement System. C-JTSCC provided SIGAR the following documents
       related to this project on 23 December 2013: (1) Pre-award Documents; (2) Evaluation
       Documents; (3) Award Documents; and (4) Post Award Documents.

          c. Recommendation (1) c. The Commanding General, U.S. Forces-Afghanistan
       (USFOR-A), direct the appropriate USFOR-A units to identify the Contracting Officer(s)
       responsible for oversight of the Satang hospital construction activities and determine
       what disciplinary action, if any, should be taken against the contracting officer(s)
       responsible for failing to provide required oversight, and report back to SfGAR within 90
       days.

           Response: Concur with Comment. C-JTSCC CG will appoint an investigating
       officer to conduct an informal investigation lAW AR 15-6 Procedures for Investigating
       Officer and Boards of Officer to look into the actions of the Contracting Officer(s)
       involved and the overall acquisition process. C-JTSCC will make recommendations
       regarding corrective actions, if any, against the Contracting Officer(s) responsible for
       oversight and management of the Salang Hospital construction project after the informal
       investigation is concluded and a review of the investigating officer's find ings and
       recommendations is completed.

          d. Recommendation (2). The Commanding General, U.S. Forces-Afghanistan
       (USFOR-A), direct the appropriate USFOR-A units to perform a physical inspection of
       the building, including appropriate engineering tests and analyses, and, given its
       location in a high seismic activity zone, determine what co"ections are required to
       ensure the structural integrity of the building.

          Response: No response provided. USFOR-A is responsible for making any
       determination as to whether additional funding should be authorized to support this
       project.

       2. My point of contact for this action is Ms. Peggy Corcoran, Audits and Oversight,




        Encl
                                                g~{.     l /
                                                 MESE. SI~N .
                                                     gadier General, USA
                                                   Commanding




                                                   2




SIGAR 14-31a-IP
Enclosure IV – The Department of the Army Combined
Joint Task Force - 101

                                           DEPARTMENT OF THE ARMY
                                          COMBINED JOINT TASK FORCE - 101
                                       HEADQUARTERS, REGIONAL COMMAND EAST
                                           BAGRAM AIRFIELD, AFGHANISTAN
                                                   APO AE093&4




       CJTF-101-COS                                                                         31 January 2014


       MEMORANDUM FOR USFOR-A Office of the Inspector General

       SUBJECT: Regional Command - East (RC-E) Response to SIGAR Draft Report: "Sa/ang Hospital:
       Lack of Water and Power Severely Limits Hospital Services, and Major Construction Deficiencies
       Raise Safety Concerns."


       1. The purpose of this memorandum is to provide a response to the draft SIGAR Report and offer
       comments.

       2. Background. This project was initiated in January 2009 and was completed and transferred to
       the Parwan Provincial Governor in November 2012. A SIGAR team visited the Salang Hospital in
       December 2013. During two inspections earlier in 2013 (when there was still coalition presence in
       the Salang District) it was confirmed that the 20-bed hospital was open and a medical staff was
       running the hospital and treating patients from Salang.

        3. Agency Com ments:

           A. SIGAR Recommendation 1: Identify the contracting officer(s) responsible for
        oversight of the Salang hospital construction activities and determine:

              1. Why the hospital was not built according to contract specifications and
        acceptable construction standards?

               a. RC-E response:

                ( 1) Two-story building . RC-E was unable to find any documentation in the project file to
        explain whether any of the contracting officers on the project ever approved a design change.
        However, a letter from the contractor requesting a design change from a 1-story, 2-wing design to
        a 2-story design due to the physical space limitations of the mountainous terrain was identified.
        See Exhibits N and 0.

               (2) Maintenance and Sustainment Deficiencies. The SIGAR report indicated that the
        hospital suffered from a lack of sufficient staff and lacked routine maintenance to the building. The
        provincial government, with the assistance of the Ministry of Public Health , has an inherent
        responsibility to ensure that the hospital is staffed with the appropriate number of doctors, nurses,
        and support personnel. This responsibility extends to ensuring that routine maintenance is
        performed in a timely manner. At the time of completion and transfer, the Parwan Provincial
        Governor signed an agreement stating that he and his government were responsible for such
        maintenance and associated costs. See Exhibit C. The SIGAR inspection in December 2013 was
        over a year after the transfer and acceptance of GIRoA, therefore maintenance issues were the
        responsibility of the hospital administrative staff, not RC-E.




SIGAR 14-31a-IP
       CJTF-101-COS
       SUBJECT: Regional Command (RC-E) Response to SIGAR Draft Report: "Salang Hospital: Lack
       of Water and Power Severely Limits Hospital Services, and Major Construction Deficiencies Raise
       Safety Concerns."


               (3) Warranty. In addition to utility responsibilities, the Parwan government was responsible
       for enforcing warranty issues. After accepting the project from RC-E, the Parwan government
       should have enforced shortcomings (such as leaking roof and mold issues) directly with the
       contractor following acceptance of the facility in 201 2. See Exhibit G.

              2. Why required documents were not placed in the CIDNE database?

              a. RC-E Response:

               (1) Failure to Comply with USFOR-A Pub. 1-06. (MAAWS-A). The SIGAR report
       highlighted failures to upload documents required by MAAWS-A, dated 15 May 2009. In January
       2009, a MAAWS-A publication did not exist. As such, there were no requirements to upload
       documents in the Combined Information Data Network Exchange (ClONE) database. A CERP
       Standard Operating Procedure served as a basic checklist, but did not replicate the requirements
       of the later-published MAAWS-A. See Exhibit H. The missing documents were identified "as
       noted" in a memorandum dated 8 October 2010; as such RC-E was not required to upload when
       the project commenced. See Exhibit J.

              (2) Documents in ClONE. RC-E was able to provide copies of the documents listed as
       missing on pages 12 and 13 of the SIGAR report. These documents are now uploaded in the
       ClONE database. Below is a line-by-line clarification of each document that SIGAR noted to be
       missing:


        Substantiating Documents                             Oriainal Date     Exhibit      Comments
                                                                                         Staff Action
        Command Group Endorsement                            30 MAR 2009         A
                                                                                         Cover Sheet
                                                                                         Only have the
        Cost Estimate                                          (Undated)         B       estimate from the
                                                                                         contractor
        Transfer.                                                                        PGOV accepting
            a. Memorandum of Agreement or                                                the project and
                Sustainment Memo from GIRoA
                                                              12 SEP 2012        c       maintenance
            b. Final inspection/completion letters                                       responsibilities
        Letter of Justification                          (None Required)         H       CERP SOP used
        Major Subordinate Comptroller Clearance                                          Clearance memo
                                                              1 DEC 2012         E
        Memorandum                                                                       uoloaded
                                                                                         There was no
        Operations and maintenance manuals, spare
        parts, and post construction guides
                                                             (None required)     --      specialized
                                                                                         eauioment
        "As built" drawings signed by the recipient                                      Photos during
                                                              07 JAN 2012        F
        acknowledging receipt and acceptance                                             inspection
        Final punch list including notice that all                                       Unsigned and
                                                                Undated          G
        deficiencies were corrected and accepted                                         undated




                                                         2




SIGAR 14-31a-IP
        CJTF-1 01-COS
        SUBJECT: Regional Command (RC-E) Response to SIGAR Draft Report: "Salang Hospital: Lack
        of Water and Power Severely Limits Hospital Services, and Major Construction Deficiencies Raise
        Safety Concerns."


                3. What disciplinary action required, if any, should be taken against the contracting
        officer(s) responsible for failing to provide required oversight?

                a. RC-E Response:

                (1) Identification of Contracting Officers. RCC-E has knowledge of the contracting officers
        (KO).

                (2) Disciplinary Action. Throughout the 4-year project, several different KOs were
        responsible for contract administration and management. Without an investigation, to include
        interviews with all of the personnel involved, it is premature to recommend disciplinary actions
        against any of the KOs involved.

           B. SIGAR Recommendation 2: Perform a physical inspection of the building, including
        appropriate engineering tests and analysis, and given its location in a high seismic activity
        zone, determine what corrections are required to ensure the structural integrity of the
        building.

           1. RC-E Response:

        a. Physical Inspection and Technical Engineering for Seismic Structural Integrity. Regional
        Command - East will advise and mentor the Parwan Provincial Government and the Salang
        District Government in their efforts to employ indigenous expertise to identify and repair structural
        deficiencies in the hospital. As with security the Afghans are assuming the lead in their
        Governance and Development as we reduce the coalition footprint. Current FML, force array, and
        the threat level in the Salang District make any movement to and operation in the vicinity of the
        hospital high risk (before risk mitigation measures are implemented). Based upon the combination
        of these three factors, the benefit of any inspection does not outweigh the risks to coalition forces
        and the inspectors who would conduct the operation.

        4. POC for this effort is LTC Ross F. Lightsey at DSN              or • • • • • •
                                              or MAJ Robert F. Douglas at DSN             or




                                                                        ~

                                                         CHRIS R. TONER
                                                         Colonel, GS
                                                         Chief of Staff




                                                          3




SIGAR 14-31a-IP
